OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/GUATEMALA’S
ECONOMIC GROWTH
PROGRAM

AUDIT REPORT NO.1-520-07-011-P
AUGUST 24, 2007




SAN SALVADOR, EL SALVADOR

                       Office of Inspector General




       August 24, 2007


       MEMORANDUM

       TO: 	              USAID/Guatemala Director, Wayne R. Nilsestuen

       FROM: 	            Regional Inspector General/San Salvador, Timothy E. Cox /s/

       SUBJECT:	          Audit of USAID/Guatemala’s Economic Growth Program (Report No.
                          1-520-07-011-P)


       This memorandum is our report on the subject audit. In finalizing the report, we carefully
       considered your comments on the draft report and we have included the Mission’s
       comments in their entirety in Appendix II.

       The report includes five recommendations for your action. The information provided in
       the Mission’s response to the draft report indicates that final action has been taken for
       Recommendation Nos. 2, 3, and 4, and that management decisions have been made for
       Recommendation Nos. 1 and 5. Determination of final action for Recommendation Nos.
       1 and 5 will be made by the Audit Performance and Compliance Division (M/CFO/APC)
       upon completion of the actions planned by the Mission.

       I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2501-2999 - Fax (503) 2228-5459
CONTENTS 

Summary of Results ....................................................................................................... 1


Background ..................................................................................................................... 3


Audit Objectives ................................................................................................................ 5


Audit Findings ................................................................................................................. 6 


     Did USAID/Guatemala’s economic growth activities achieve 

     planned results? ........................................................................................................ 6 


          USAID Partners Lacked Annual Performance Targets and Did Not Report 

          Results Quarterly .................................................................................................. 7 


          Implementing Partner Needs to Report on Counterpart Contributions ................. 8 


     Did USAID/Guatemala’s reporting on its economic growth activities 

     provide stakeholders with complete and accurate information on the 

     progress of the activities and the results achieved? ................................................... 9 


          Key Reported Results Were Inaccurate or Unsupported ................................... 10 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ..................................................................... 156 

SUMMARY OF RESULTS 

As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions (page 5):

•	 Did USAID/Guatemala’s economic growth activities achieve planned results?

•	 Did USAID/Guatemala’s reporting on its economic growth activities provide
   stakeholders with complete and accurate information on the progress of the activities
   and the results achieved?

With respect to the first question, for the items tested, USAID/Guatemala’s economic
growth activities achieved planned results by providing technical assistance to the
Government of Guatemala (GOG) in support of its economic development plan, helping
to generate sales revenues, create jobs, promote tourism, and support sustainable
development of natural resources. Despite these accomplishments, we noted two areas
where opportunities existed to improve program management. Specifically, targets need
to be determined and set for some implementing partners’ performance indicators and
counterpart contributions by one implementing partner need to be reported as required.
(See pages 5-9.)

With respect to the second question, for the items tested, USAID/Guatemala’s reporting
on its economic growth activities did not provide stakeholders with complete and
accurate information on the results achieved from its activities. More needs to be done
to strengthen the data collection methodology and to verify the quality of the data
reported by USAID’s partners. (See pages 10-12.)

This report contains five recommendations for USAID/Guatemala:

•	   Require two implementing partners to develop appropriate indicators and targets
     and report their progress toward achieving the targets on a quarterly basis (see
     page 8).

•	   Work with one implementing partner to collect and report on third party
     contributions on a quarterly basis (see page 9).

•	   Provide supervision of data quality assessments to reasonably ensure that they are
     performed with due diligence (see page 12).

•	   Provide supervision to Cognizant Technical Officers to ensure that they periodically
     sample and review their implementing partners’ data for completeness, accuracy,
     and consistency (see page 12).

•	   Include precise indicator definitions in its Performance Management Plan and
     document all assumptions and data collection methodologies (see page 12).

USAID/Guatemala agreed with the findings and recommendations in our draft audit
report and has already completed the necessary actions for three of the five
recommendations. For example, the Mission developed a specific form to be used by


                                                                                       1
Cognizant Technical Officers during site visits to assess the quality of partner data and
has included the requirement to periodically sample and review partners’ data in
Cognizant Technical Officers’ work objectives. In addition, the Mission has specific
plans to address the other two recommendations in the report. (See page 13 and
Appendix II.)




                                                                                       2
BACKGROUND 

Ten years have passed since Guatemala signed the Peace Accords in December 1996
that ended a 36-year civil war, but Guatemala still faces important challenges to building
a more just, equitable, and prosperous society. Guatemala suffers from the region's
lowest public spending in social services and lowest tax revenues less than 10 percent
of gross domestic product) from which to support this spending. In addition, Guatemala
has the second-worst income distribution of any country in Latin America, with more than
56 percent of Guatemalans living in poverty and 17 percent living on less than one dollar
a day.

The chart below shows that real per capita GDP growth has lagged GDP growth for
Latin America and the Caribbean as a whole. For example, during the five years ending
in 2006, real GDP grew 6.9 percent in the region, but just 0.3 percent in Guatemala. In
effect, living standards have not improved much in five years.

Figure 1. Per Capita GDP, Purchasing Power Parity Method, Constant 2000 Dollars
for Guatemala and 20 Latin American and Caribbean Countries with Populations
over 3 Million.


       $7,500


                                                                                       Average of 20 LAC Countries
       $6,000


       $4,500
                                                                                                       Guatemala


       $3,000


       $1,500


              $0
                        1997            1998               1999   2000   2001   2002   2003     2004     2005        2006
Source: World Bank, World Development Indicators Online.




Soon after assuming power in January 2004, the Berger Administration issued its
strategy for economic reactivation, “Vamos Guatemala,” which is part of the
government’s 2004-2008 plan. “Vamos Guatemala” incorporates the broad goals of the
1996 Peace Accords, and includes activities to achieve participatory socio-economic
development and social inclusion, sustained economic growth, and improved
government fiscal performance to increase government expenditures in health,
education, security, and infrastructure.

“Vamos Guatemala” began with three components: “GuateSolidaria,” to support
participatory development and social harmony; “GuateCrece,” to support sustained
acceleration in economic growth rate; and “GuateCompite,” to support the private


                                                                                                                            3
sector’s capacity to meet and surpass international standards of quality and competition.
All three were developed within a context of macroeconomic stability, improved
administration, and personal security. More recently, the Government of Guatemala
added two more components to “Vamos Guatemala:” “GuateVerde,” to support
environmentally sustainable growth, and “GuateInvierte,” to support increased
investment especially in the rural economy. The “GuateCrece” component of the
strategy encourages increased public investment, increased private investment, and
public-private alliances in key economic sectors, especially housing, infrastructure,
tourism, finance, and forest products.

Recently, the U.S.-Central America Free Trade Agreement, commonly known as CAFTA
entered into force between Guatemala and the United States on July 1, 2006. CAFTA
eliminates customs tariffs on as many categories of goods as possible; opens services
sectors; and creates clear and readily enforceable rules in areas such as investment,
government procurement, intellectual property protection, customs procedures,
electronic commerce, the use of sanitary and phyto-sanitary measures to protect public
health, and resolution of business disputes.

The Government of Guatemala’s national competitiveness agency (PRONACOM) is
USAID’s principal collaborator and works with USAID to identify priorities, design and
coordinate activities, and oversee implementation. USAID/Guatemala’s economic
freedom strategic objective includes activities to support improved laws, policies, and
regulations that promote trade and investment; more competitive, market-oriented
private enterprises; and broader access to financial markets and services. These
activities are meant to allow Guatemala to take advantage of regional and global market
opportunities in sustainable tourism, high-value agricultural and specialty coffee exports,
and certified forest products.

The following table shows cumulative obligations and expenditures as of September 30,
2006 for USAID/Guatemala’s economic growth strategic objective by intermediate result,
and by contractor and grantee.

Table 1. Strategic Objective, Intermediate Results, and Contractors and Grantees
(Financial Information as of September 30, 2006 – Unaudited)

                     Description                         Obligations       Cumulative
                                                           (US$)          Expenditures
                                                                             (US$)
 Strategic Objective No. 2: Economic Freedom: Open,
 Diversified, Expanding Economies ($17.5M)
     Intermediate Result No. 1: Laws, Policies, and
     Regulations that Promote Trade and Investment
          Academy for Educational Development                  250,000            250,000
          Development Alternatives International               200,000            198,584
          International Resources Group                        499,997            499,997
          Abt Associates                                     1,528,932            590,976
          Inter-American Institute on Cooperation on
          Agriculture                                          470,000            400,887
          Universidad Rafael Landivar                           64,388             64,388
     Intermediate Result No. 2: More Competitive
     Market-Oriented Private Enterprises



                                                                                         4
        Chemonics                                            749,964           749,964
        Counterpart International                          1,330,000         1,052,233
        Gremial de Exportadores (AGEXPORT)                 2,185,140         1,691,332
        Michigan State University                            300,000           300,000
        Camara de Industria de Guatemala                      35,625            35,625
        Rainforest Alliance                                  450,000           107,867
        Technoserve                                          499,593           450,000
        Fundación Agil                                       527,500           133,340
        ANACAFE                                              527,500            47,737
        Wildlife Conservation Society                         76,000            15,389
        Ingeniería y Representaciones, S.A.                   33,477                 0
        Planeta en Linea                                      17,327                 0
        Other                                                 26,494            18,843
        U.S. Department of the Interior                      200,000           200,000
    Intermediate Result No. 3: Broader Access to
    Financial Markets and Services
        Development Credit Authority program -               400,000                 0
        Banrural
    Crosscutting Programs
        Research Triangle Institute                           83,000               223
        PriceWaterhouseCoopers                                49,612            49,612
        KPMG                                                 100,000                 0
        Wingerts Consulting                                   69,931            69,931
        Other                                                 15,158            14,885

                                                         $10,689,638        $6,941,813

This table does not include field support, Hurricane Stan emergency relief, and other
funding that was not part of the audit scope.

AUDIT OBJECTIVES
As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•	 Did USAID/Guatemala’s economic growth activities achieve planned results?

•	 Did USAID/Guatemala’s reporting on its economic growth activities provide
   stakeholders with complete and accurate information on the progress of the activities
   and the results achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      5
AUDIT FINDINGS

Did USAID/Guatemala’s economic growth activities achieve
planned results?
For the items tested, USAID/Guatemala’s economic growth activities achieved planned
results by providing technical assistance to the Government of Guatemala (GOG) in
support of its economic development plan, helping to generate sales revenues, create
jobs, promote tourism, and support sustainable development of natural resources.
However, there were two program management areas that could be strengthened: (1)
setting annual performance targets for implementing partners and (2) ensuring that
counterpart contributions are reported as required.

We reviewed 8 out of the 16 performance indicators listed in the Mission’s Performance
Management Plan (PMP),1 as shown below:

Table 2. Eight Economic Growth Program Indicators and Their Corresponding
Targets and Results for FYs 2005 and 2006

Performance Indicator                        Target for    Actual for    Target for   Actual for
                                              FY 2005       FY 2005       FY 2006      FY 2006
Growth Competitiveness Index Ranking
(lower percentage is better)                    76%           81%          75%           60%
Composition of Exports by Key Products
(key products as a percentage of total          15%          17.4%         15.4%        18.2%
exports)
Laws, Policies, and Regulations Assisted
                                                 n/a           n/a           9             9
Trade Policy Rating (Index of Economic
Freedom) (lower is better)                       3.0           3.0          3.0           2.5
Cumulative Sales Value of Goods and
Services as a Result of USAID Programs         15,000        16,286       35,000        30,4892
($ thousands)

Cumulative Number of Jobs Created as a
Result of USAID Programs                        5,000        11,019       17,000        19,974

Revenue Generated from Tourism ($M)              837          868           905          973.5
                                                           (CY basis)                  (FY basis)
Number of Days to Start a Business
(lower is better)                                39            39           35            30




1
    We chose the eight indicators as a representative sample of the most important indicators
    across the various intermediate results under the Strategic Objective within the scope of the
    audit.
2
    The Mission reported a value of $33,878,000, but audit adjustments to correct data errors (see
    pages 9-11) bring the reported value down to $30,489,000. Since we did not review 100
    percent of the reported information, the correct amount is not known.


                                                                                                  6
In FY 2006, seven of eight performance targets were met. The target for “cumulative
sales value of goods and services as a result of USAID programs” was not met: the
target was $35 million in cumulative sales, the Mission reported $33.9 million in sales,
and audit adjustments brought this figure down to $30 million. Issues concerning the
accuracy of reported results are discussed in the section beginning on page 10.

As shown in Table 2 above, the Mission has achieved successes in several program
areas, including providing technical assistance to the GOG, increasing employment, and
increasing revenues from exports and tourism. Examples of other achievements
reported by USAID/Guatemala follow:

•	 Laws, Policies and Regulations that Promote Trade and Investment – In addition to
   the technical assistance provided at the request of the GOG to a number of
   government departments and agencies, USAID has trained 200 new customs
   officials and provided training to rural area inhabitants and businesses on
   opportunities available as a result of the Central America Free Trade Agreement
   (CAFTA).

•	 More Competitive, Market-Oriented Private Enterprises – USAID focused on three
   areas to strengthen economic opportunities, particularly for rural small- and medium-
   size enterprises (SMEs): agriculture and agribusiness, forestry, and tourism. In
   these areas, USAID/Guatemala has, among other things, helped to create 20
   sustainable community forestry concessions that produce certified wood while
   continuing to protect forests, supported economic strengthening in rural areas
   through technical assistance that promotes tourism through sustainable use of
   cultural and natural resources, and increased linkages between producers and
   buyers through trade fairs.

•	 Broader Access to Financial Markets and Services – USAID has trained participating
   financial institutions to better understand how to work with SMEs and to better
   understand the importance of SMEs in fostering economic growth in Guatemala.

We noted two areas where opportunities exist to improve program management. More
specifically, implementing partners should have annual performance targets set in order
to manage activity progress and implementing partners should report counterpart
contributions as required. These areas are discussed in the following sections.

USAID Partners Lacked Annual Performance
Targets and Did Not Report Results Quarterly
Summary: Automated Directives System (ADS) guidance states that, in order to monitor
the quality and timeliness of outputs produced by implementing partners, outputs should
be specific. Additionally, implementing partners’ awards required that a performance
management plan be developed with specific targets and regular quarterly reporting on
the activities’ progress. However, two partner’s plans did not include annual targets for
all indicators and results were not reported regularly. Mission staff believed that having
“life of activity” targets was sufficient to manage the programs’ progress. As a result,
ADS requirements were not complied with and neither the awards nor the partners’ work
plans could be used to compare planned and actual outputs. Without annual targets set
that build to achieve the overall program goals, the Mission would have a difficult time


                                                                                        7
making “midcourse corrections” to the program on the basis of current performance.

ADS 200.3.2.1 states that intended results need to be explicit in order to manage for
results. ADS 202.3.6 requires implementing partners’ outputs to be specific in order for
USAID to monitor the quality and timeliness of outputs and it states that outputs are
critical to achieving results. All five of the economic growth program awards we
reviewed required the implementing partners to have performance management plans
with results reported to USAID on a quarterly basis.

Of five partner awards reviewed, we found that two partners, AgExport and AnaCafe,
have not established annual performance indicators and targets that measure the
progress of their activities as required. While AgExport did develop a performance
management plan that included 45 performance indicators in its FY 2005 work plan, it
did not have a performance management plan for Phase II of its program activities that
started in April 2006. Additionally, AnaCafe prepared a performance management plan
that listed 12 indicators to measure achievements in 2007, the first full year of
implementation. However, of the 12 indicators in the plan, 6 did not have targets
established, 2 were not easily measurable because they lacked clear definitions, and 2
measured national-level results instead of results that were attributable to USAID-
financed activities. Moreover, while preliminary targets for two key indicators, sales and
jobs created, were listed, they contained only end-of-program targets and did not include
any annual targets to measure progress towards the overall program goals.

Finally, although the partners were required to report quarterly on their progress in
meeting targets, USAID/Guatemala only required them to submit performance results
once a year. Therefore, the partners’ performance targets and actual results were not
systematically reported in their quarterly progress reports.

Mission staff believed that having overall “life of activity” or “end of program” targets and
results reporting on an annual basis was sufficient for program management purposes.
However, without annual targets and regular reporting on the progress towards reaching
those targets by partners, the Mission cannot be sure that acceptable progress is being
made in reaching the overall goals of the program and does not have an opportunity to
make “midcourse corrections.”

As a result, ADS requirements were not complied with and neither the awards nor the
partners’ work plans could be used to compare planned and actual outputs. Without
timely progress reports of achievements obtained, Mission staff cannot determine
appropriate adjustments to the program and activity focus to ensure the successful
achievement of the program’s goals.

   Recommendation No. 1: We recommend that USAID/Guatemala require
   AnaCafe and AgExport to a) develop performance management plans that
   contain appropriate indicators that are attributable to USAID activities along with
   reasonable annual targets for each, and b) report on the key program indicators
   on a quarterly basis.

Implementing Partner Needs to
Report on Counterpart Contributions



                                                                                           8
 Summary: Although one partner’s award specifically required quarterly reporting on
 counterpart contributions from the partner and from third parties, the partner was
 unable to account for contributions from third parties. The partner’s activity coordinator
 and the financial administrator were simply unaware of the need to track and report on
 these amounts. Without tracking and reporting on all counterpart contributions to the
 program, USAID/Guatemala cannot be certain that planned contributions are actually
 provided and, therefore, runs a risk that activities may not achieve planned objectives.

On June 8, 2006, USAID entered into a $2.5 million cooperative agreement with
AnaCafe to provide support for a program in Competitive Enterprises. As part of the
agreement, AnaCafe was required to expend at least $2.06 million as a cost-sharing
contribution and an additional $565,536 was required to be generated from third party
investments to the program. The award required AnaCafe to report on these counterpart
contributions on a quarterly basis in the progress reports that it submits to
USAID/Guatemala. Specifically, the award stated that “quarterly progress reports shall
report on recipient’s compliance with meeting leverage resources” (i.e., contributions
from third parties). ADS 303.2.f states that the Cognizant Technical Officer (CTO) is
responsible for monitoring the partner’s financial reports to ensure that they are making
progress toward meeting cost-sharing requirements.

A review of the partner’s quarterly progress reports showed no indication of reporting on
these counterpart contributions. When questioned about the lack of reporting, the
implementing partner’s staff was unaware of the requirement to track and report on third-
party contributions. Although they were aware of the cost sharing (matching) funds
requirement, they were unable to provide records of their current contribution level and
were not sure that their accounting system could determine such an amount. Mission
staff mistakenly believed that the partner was fully aware of its duty to track and report
on counterpart contributions.

Without regular reporting on the cost-sharing contributions from others, USAID
managers do not know the amount of contributions or whether the partner is realizing
their portion of the costs that support the program. Without this knowledge, USAID
cannot be assured that the appropriate amount of funds are being spent by other parties
to leverage program activities and runs a risk that shortfalls in contributions could
adversely affect achievement of program outcomes.

On the last day of our visit, AnaCafe did provide its cost sharing contributions to USAID.
However, it has not provided any information regarding the $565,536 in planned
contributions from third parties.

   Recommendation No. 2: We recommend that USAID/Guatemala work with its
   partner, AnaCafe, to develop a reporting format to report quarterly on third party
   contributions.

Did USAID/Guatemala’s reporting on its economic growth
activities provide stakeholders with complete and accurate
information on the progress of the activities and the results
achieved?



                                                                                         9
For the items tested, USAID/Guatemala’s reporting on its economic growth activities did
not provide stakeholders with complete and accurate information on the results achieved
from its activities. In addition, more needs to be done to verify the quality of data
reported by USAID. These issues are discussed in the following section.

Key Reported Results
Were Inaccurate or Unsupported
Summary: According to ADS guidance, performance data should be accurate and
reliable, and the Mission should take steps to ensure that submitted data are adequately
supported and documented. However, two of the main performance indicators reported
by the Mission in its annual reporting, Sales of Goods and Services and Jobs Created,
contained a number of errors in the calculation of results. The Mission’s reported result
for cumulative sales in FY 2006 was overstated by 14 percent. Reported information on
jobs created was largely unsupported. The Mission and the partners also made some
inconsistent and unsupported assumptions in order to calculate results for these two
indicators. These reporting errors occurred for a number of reasons including weak data
quality assessments, inconsistent and unsupported assumptions, lack of verification of
the performance data by Mission staff, and a lack of written data collection methodology
to ensure consistent and accurate data reporting among the various partners and over
time. Consequently, the Mission lacked accurate information on which to base program
management decisions.

USAID provides its operating units with a great deal of guidance on managing for
results. Among this guidance is ADS 203.3.5.2, which states that the purpose of a data
quality assessment is to ensure that the Operating Unit and SO Teams are aware of the
strengths and weaknesses of the data and of the extent to which the data integrity can
be trusted to influence management decisions. The ADS also states that when
Operating Units conduct data quality assessments of data from secondary sources
(including implementing partners, government counterparts, and international agencies),
the Operating Unit should focus the data quality assessment on the apparent accuracy
and consistency of the data and these assessments should be documented in the
program files. According to TIPS 12 (supplemental guidance referenced by the ADS),
USAID Cognizant Technical Officers (CTOs) are charged with the responsibility of
ensuring that data reported by implementing partners are accurate. TIPS 12 also states
that objective indicators have clear operational definitions that are independent of the
person conducting the measurement – that is, different individuals would collect data for
an objective indicator using the same indicator definition. The guidance further states
that “clear and comprehensive definitions help ensure a reasonable level of objectivity
and comparability over time.”

Two of the main performance indicators reported by the Mission in its annual reporting,
Sales of Goods and Services and Jobs Created, contained a number of errors in the
calculation of results. We also found some inconsistent and unsupported assumptions
made by the Mission and the partners in order to calculate results for these two
indicators. The following are examples of data quality and reporting issues that affected
the results reported for these two indicators:

•	 AgExport reported $3.7 million in sales generated by eight alliances organized in
   2004 that were included in the calculation of sales for both FY 2005 and 2006.


                                                                                      10
   These sales should have only been included in FY 2005, which resulted in the sales
   indicator being over-reported by almost 11 percent in FY 2006.

•	 Part of the sales earned by AgExport’s 20 supply chain alliances from 2005 were
   reported in FY 2006, but should have been reported in FY 2005 when the sales were
   actually generated. Similarly, gross sales from AgExport’s trade fairs used to
   calculate the portion attributable to USAID-financed activities in FY 2006 included
   sales from trade shows held in FY 2005.

•	 The Mission credited Counterpart International with $355,000 in sales for FY 2006.
   This amount corresponds to the previous award for the period from October 2005 to
   April 2006. The Mission should have reported sales of $65,000 which were derived
   from the new award during the period from May to September 2006, but were not
   included in the reported amount.

•	 The Mission credited Agil with $892,500 in sales for FY 2006 when actually these
   sales were earned in FY 2007. Instead, the Mission should have reported
   $1,124,894 in sales, which pertained to the fourth quarter of FY 2006.

•	 The Mission made the unsupported assumption that 25 percent of the total sales and
   jobs created from AgExport trade fairs were attributable to USAID interventions. As
   a result, AgExport’s trade fairs accounted for almost half of all cumulative jobs
   created and half of all cumulative sales reported for FY 2006.

•	 Agil, one of four partners reporting on job creation, overreported the number of jobs
   created in FY 2006 because it used the wrong time period. The reported results
   included 443 jobs created when the actual figure was only 120.

•	 The methodologies used to report jobs created were inconsistent and included
   unsupported assumptions. One Mission document states that the number of jobs
   created is based on 240 work days per year, another is based on 250 work days per
   year, and yet another is based on 260 work days per year.

•	 AgExport had no support for its reported jobs figures from the trade fairs and the
   alliances, which together accounted for 86 percent of the jobs reported in FY 2006.

•	 Some results were based on questionable figures that the Mission did not verify. For
   example, one survey of trade fair participants in Guatemala during March 2006
   indicated that the fair had generated $13 million in sales and 6,500 jobs. This
   appears to be an unreasonable figure because it would mean that for every $2,000 in
   sales generated, one full-time job was created.

These problems occurred because Mission staff relied on their implementing partners to
report data and ensure data quality, and did not recognize the importance of
independently verifying data quality. Although the Mission had performed data quality
assessments for the sales and jobs indicators, they were inadequate and should be
readdressed and strengthened. For example, the data quality assessments for these
two indicators state that the data will not be gathered from surveys and, therefore, there
can be no sampling error. However, data on sales generated and jobs created through
commercial shows and trade fairs are in fact based on surveys.



                                                                                       11
Thorough and complete data quality assessments and periodic verification ensure
consistent and reliable data are being collected for management decision making
purposes as well as for reporting purposes. Without such assurances, program
managers may themselves report erroneous information to stakeholders or may make
decisions based on erroneous information.

   Recommendation No. 3: We recommend that USAID/Guatemala develop
   procedures for supervising data quality assessments to provide reasonable
   assurance that they are performed with sufficient due diligence.

   Recommendation No. 4: We recommend that USAID/Guatemala put procedures
   in place to provide supervision to its Cognizant Technical Officers to ensure that
   they periodically sample and review their implementing partners’ data for
   completeness, accuracy, and consistency.

   Recommendation No. 5: We recommend that USAID/Guatemala a) include
   precise definitions for indicators in its Performance Management Plan, and b)
   document all assumptions and methodologies for indicator data collection,
   analysis, and reporting to ensure consistent methodologies amongst partners.




                                                                                        12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Guatemala agreed with the findings and recommendations in our draft audit
report and has already completed the necessary actions for three of the five
recommendations. In response to Recommendation No. 2, the Mission has developed a
new reporting format for AnaCafe and AnaCafe has resubmitted its reports for the three
previous quarters which now include the status of funds leveraged from third-party
investments. In response to Recommendation Nos. 3 and 4, the Mission developed a
specific form to be used by Cognizant Technical Officers (CTOs) during site visits to
assess the quality of partner data and has included the requirement to periodically
sample and review partners’ data in CTOs’ work objectives. Thus, final action on
Recommendation Nos. 2, 3, and 4 has been taken. In addition, the Mission has specific
plans to address Recommendation Nos. 1 and 5. Mission comments in their entirety are
presented in Appendix II.




                                                                                   13
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether activities under USAID/Guatemala’s economic growth activities
achieved planned results and whether reporting provided stakeholders with complete
and accurate information on the progress of the activities and the results achieved.

In planning and performing the audit, we assessed the Mission’s controls related to its
economic growth activities.        The management controls identified included the
Performance Management Plan (PMP), the Mission’s Annual Report, the Mission’s data
quality assessments, the Mission’s annual self-assessment of management controls as
required by the Federal Managers’ Financial Integrity Act of 1982, reports on Cognizant
Technical Officer (CTO) field visits, program progress reports, and day-to-day interaction
between Mission staff and program implementers.

The audit covered the Mission’s second strategic objective, Economic Freedom: Open,
Diversified Expanding Economies. The audit was conducted in Guatemala from March
20, 2007 to April 20, 2007. The audit focused on the period from October 1, 2004
through September 30, 2006.

The scope of the audit included partners that were funded with at least $500,000. The
audited sample represented $6.1 million of the $10.7 million obligation total (57 percent)
and $3.5 million of the $6.9 million cumulative expenditures total (51 percent) as of
September 30, 2006 for the activities audited.

Methodology
To answer the audit objectives, we met with CTOs and implementing partners. We
reviewed relevant documentation produced by USAID/Guatemala such as award
documents, Mission correspondence, worksheets for measuring results, Mission
Performance Management Plan, Annual Reports, and field visit reports. We also
reviewed documentation prepared by implementing partners such as annual work plans
and quarterly progress reports.

We chose to sample 5 of the 20 key implementing partners with ongoing operations.
The sample was judgmentally selected in order to represent the largest awards within
each intermediate result in order provide sufficient coverage of the program. In order to
test whether targets were met, we reviewed 8 of the 16 indicators that were reported in
the Mission’s Performance Management Plan and Annual Report. The indicators tested
were selected on the basis of the importance of the indicator in reporting performance
and to sufficiently cover the intermediate results that were included in the scope of the
audit. We excluded from the sample environmental and development credit authority
activities because of the size of the programs and previous audit work.




                                                                                       14
                                                                           APPENDIX I


In order to determine whether accurate information was reported, we compared results
obtained from tests and interviews with the results presented in the Mission’s
Performance Management Plan, the Congressional Budget Justification, and the Annual
Report. We specifically verified reported accomplishments by doing the following:

•	 We reviewed Mission performance monitoring documentation to compare reported
   results with supporting figures contained in the Mission’s files.

•	 For context indicators and national-level indicators, we compared the Mission’s
   reported results with source organizations’ reported results and data to ensure
   accuracy of reporting by the Mission.

•	 For the key activity performance indicators, we interviewed Mission and/or
   implementing partner personnel and reviewed documentation to determine how
   results were collected for these indicators. Limited testing performed to determine
   the accuracy of results reported consisted of the following:

   o	 For the agricultural and coffee activities, we reviewed the implementing partners’
      supporting records and compared the reported performance figures for increased
      sales and jobs with the correct reporting period and the records kept by the
      USAID CTO.

   o	 For the performance indicator for number of technical assistance with laws,
      policies, and regulations provided by the Mission’s contractor, we compared the
      list of activities from the Mission’s performance monitoring support documents
      with the partner’s files to ensure the validity of the activities.

   o	 For the tourism revenue indicator, we reviewed the partners’ documentation and
      traced the figures to the Mission’s indicator consolidation document to verify
      accuracy and performance periods.

In judging the significance of variances between reported accomplishments and
supporting documentation, we considered variances of 5 percent or more to be
significant and reportable.




                                                                                     15
                                                                          APPENDIX II 




MANAGEMENT COMMENTS 

Date:      July 25, 2007

To:        Tim Cox, RIG/A/San Salvador

From:      Richard W. Layton, USAID/Guatemala Acting Director

Subject:   Draft Audit Report No. 1-520-07-XXX-P


Background

As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed the audit of USAID/Guatemala’s Economic Growth Program. The draft audit
report dated May 21, 2007 includes five audit recommendations. This memorandum
documents actions taken and to be taken by the Mission to implement all the
recommendations:

II Management Decisions          and     Action    Taken   to   Address   Draft   Audit
Recommendations

Recommendation No. 1:

We recommend that USAID/Guatemala require ANACAFE and AGEXPORT to a)
develop performance monitoring plans that contain appropriate indicators that are
attributable to USAID activities along with reasonable annual targets for each, and
b) report on the key program indicators on a quarterly basis.

Action taken and to be taken to properly address this recommendation:

A) USAID/Guatemala has required ANACAFE and AGEXPORT to submit Performance
Monitoring Plans (PMPs) that contain appropriate indicators and meet established
criteria. Both partners have already submitted their draft PMPs for CTO review and
approval (see Annex A).

B) The CTO is taking advantage of every meeting to ensure that both partners
appropriately report quarterly on progress towards the achievements of agreed upon
indicators. The first report containing this information will be for the quarter ending
September 2007. We will request closure of this recommendation once PMPs for both
institutions are approved and quarterly reports are received meeting the requirements
outlined in section “b” of the audit recommendation.




                                                                                    16
                                                                         APPENDIX II 



Memorandum to Mr. TCox
Audit Reports: 1-520-07-XXX-P, May 21, 2007
Response to the draft audit report
Page 2

We expect above actions be completed by October 2007, at which time we will request
closure of the recommendation.

Recommendation No. 2:

We recommend that USAID/Guatemala work with its partner, AnaCafe, to report
quarterly on the status of the requirement to collect $565,536 from third party
investments

Action taken to properly address this recommendation:

USAID/Guatemala has developed a new reporting format for ANACAFE’s use in
reporting (quarterly) the status of funds leveraged from third party investments. After
testing the form and as reflected in Annex B to this memorandum, on July 16, 2007,
ANACAFE resubmitted its reports for the quarter ending December 2006, March 2007,
and June 2007 including the required information.

Recommendation No. 3:

We recommend that USAID/Guatemala develop procedures for supervising
data quality assessments to provide reasonable assurance that they are
performed with sufficient due diligence.

Action taken to properly address this recommendation:

The SO2 team developed a specific form that responds to the need for assessing the
quality of data being provided by partners on key indicators. The form and instructions
requiring its use in conjunction with Mission Order 2.15 “Site Visits” are attached as
Annex C to this memorandum.

Recommendation No. 4:

We recommend that USAID/Guatemala put procedures in place to provide
supervision to its Cognizant Technical Officers to ensure that they periodically
sample and review their implementing partners’ data for completeness,
accuracy, and consistency.

Action taken to properly address this recommendation:

The SO2 Team leader has provided supervision and guidance to its Cognizant Technical
Officers (CTO’s) to periodically sample and review implementing partners’ data by
including this requirement as a work objective for the current rating period (See Annex
D).


                                                                                    17
                                                                             APPENDIX II 



Memorandum to Mr. TCox
Audit Reports: 1-520-07-XXX-P, May 21, 2007
Response to the draft audit report
Page 3


Procedures in place require:

a) CTOs properly plan for and report on results of field and partner headquarters visits.

b)	 CTO’s consistently monitor and document their reviews of key indicator data in
    approved PMP’s

c)	 SO-2 team leader hold weekly meetings with CTOs on their monitoring/oversight of
    assigned partner activities.

d) 	 On a quarterly basis CTO’s with the support of FMO financial analysis backstops
   assess/review the accuracy, consistency, and completeness of partner reported
   information. Assessment/review effort and results will be properly documented and
   any resulting recommendations discussed and resolved with the appropriate
   responsible party (ies).


Recommendation No. 5:

We recommend that USAID/Guatemala a) include precise definitions for indicators
in its Performance Management Plan, and b) document all assumptions and
methodologies for indicator data collection, analysis, and reporting to ensure
consistent methodologies amongst partners over time.

Actions to be taken            by   USAID/Guatemala       to   properly    address    this
recommendation:

a) Include a precise definition for indicators in the SO-2 PMP and ensure that partners
understand and apply such definitions.

b) SO2 PMP include a description of the assumptions and methodologies used for
indicator data collection, analysis and reporting.

c) Share section “a” and “b” information with partners to ensure consistency in
understanding and in report content.

We expect the above actions be completed by September 2007, at which time we will
request closure of this audit recommendation.




                                                                                        18
                                                                               APPENDIX II 



Memorandum to Mr. TCox
Audit Reports: 1-520-07-XXX-P, May 21, 2007
Response to the draft audit report
Page 4

III. Action Requested


Based on the above, USAID/Guatemala request: 


A. RIG/SS concurrence with the Mission’s management decisions on all five draft audit
recommendations, and

B. Closure of recommendations 2, 3, and 4 upon issuance of the final report.

We thank RIG/SS for its professionalism in the performance of this audit and for the
opportunity to comment on the final draft audit report resulting from its efforts.




                                                                                        19
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

            Tel: (202) 712-1150 

           Fax: (202) 216-3047 

            www.usaid.gov/oig

